                              ARKANSAS HUMAN
                         DEVELOPMENT CORPORATION
                           LITTLE ROCK, ARKANSAS
                                    ***

                              AUDIT REPORT ON
                     U.S. DEPARTMENT OF LABOR GRANT
                            NUMBER AC-10715-00-55



                                Performance Audit for
                    Program Year July 1, 2000 through June 30, 2001


This audit was performed by Harper, Rains, Knight & Company, P.A., under contract to the
Inspector General, and, by acceptance, it becomes a report of the Office of Inspector
General.


                                                __________________________________
                                                 Assistant Inspector General for Audit




                                             Report Number: 21-04-001-03-365

                                             Date Issued: March 22, 2004
                                             TABLE OF CONTENTS
                                                                                                                            Page

ACRONYMS....................................................................................................................... i

EXECUTIVE SUMMARY .................................................................................................1

INTRODUCTION AND BACKGROUND ........................................................................3

OBJECTIVES, SCOPE, AND METHODOLOGY.............................................................4

AUDITOR’S REPORT ON PERFORMANCE ..................................................................6

FINDINGS...........................................................................................................................7

     1. Ineligible Participants Were Enrolled In the National Farmworker
        Jobs Program............................................................................................................7

     2. Costs Related To the DOL Youth Grant Were Charged To the
        DOL Adult Migrant Grant .....................................................................................10

     3. Costs Related To the CADF Grant Were Charged To the
        DOL Adult Migrant Grant.....................................................................................11

     4. Certain Costs Were Not Allocated To Other Grants That Benefited.....................12

     5. Indirect Cost Rate Agreement Was Incorrectly Applied .......................................14

     6. Job Placement Totals Reported To ETA Were Overstated ...................................16


SCHEDULES

     Schedule A – Schedule of Costs Reported ..................................................................18

     Schedule A-1 – Schedule of Costs Reported - Supplemental Information..................20

     Schedule B – Schedule of Performance Reported .......................................................21

APPENDIX

Appendix A –AHDC’s Written Response to Draft Report................................................23
                                    ACRONYMS




AHDC -    Arkansas Human Development Corporation

CADF -    Central Arkansas Development Fund

CFR   -   Code of Federal Regulations

CRT   -   Classroom Training

DOL -     U.S. Department of Labor

DMSF-     Division of Migrant and Seasonal Farmworkers

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

GED -     General Equivalency Diploma

NFJP -    National Farmworker Jobs Program

OASAM - Office of the Assistant Secretary for Administration and Management

OJT   -   On-the-Job Training

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

WE    -   Work Experience Training

WIA   -   Workforce Investment Act




                                         i
                             EXECUTIVE SUMMARY


The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Knight & Company, P.A., to perform an audit of the Workforce Investment Act’s
National Farmworker Jobs Program to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and nonprofit
organizations to operate the program within 47 states and Puerto Rico. We selected a statistical
sample of nine grantees for review and tested the direct and indirect costs claimed for
reimbursement by these grantees. Our objectives were to determine whether the costs claimed
by the grantees for the period July 1, 2000 through June 30, 2001, under the DOL grants were
reasonable, allowable, and allocable under the cost principles set forth in OMB Circular A-122
and grant guidelines and to determine that performance reported was accurate and properly
supported.

This report presents the results of our audit of Arkansas Human Development Corporation
(AHDC) under DOL Grant Number AC-10715-00-55. Under the authority of the Workforce
Investment Act (WIA), DOL's Employment and Training Administration (ETA) awarded AHDC
a grant in the amount of $1,158,895 to provide training and services to eligible migrant and
seasonal farmworkers throughout Arkansas to strengthen their ability to achieve economic self-
sufficiency. AHDC operates an administrative office in Little Rock with satellite offices in
Gosnell, Forrest City, Dumas, Hope, and Fort Smith from which it provides training and other
assistance to the migrant and seasonal farmworkers. During PY 2000 AHDC placed 87
participants in unsubsidized jobs, and provided 712 with supportive services.

Our audit resulted in questioned costs of $34,445 that were not in compliance with laws and
regulations. We questioned $24,888 because inadequate participant verification procedures
allowed participants to be enrolled who did not have the required farmwork history, and $9,557
because certain costs were improperly charged to the Farmworker grant that should have been
charged to other grants or allocated among all of AHDC’s grants. We also found that job
placement totals reported to ETA were overstated.

AHDC’s response to our draft report is included at Appendix A of this report. Pertinent
comments from AHDC’s response have been included in the body of the report. Based on
additional evidence provided in AHDC’s response, we reduced the amount of questioned costs
from $44,092 in the draft report to $34,445 in the final report.

Recommendations:

We recommend that the Assistant Secretary for ETA:

     1.    Recover questioned costs of $34,445.

     2.    Require AHDC to properly verify all required eligibility criteria including farmwork
           history and income, and all other items addressed in the NFJP Bulletin 00-02.




                                               1
3.   Request the Office of the Assistant Secretary for Administration and Management
     (OASAM) Regional Cost Negotiator to review the base being used for indirect costs.

4.   Require AHDC to strengthen controls over the application of its indirect cost
     agreement to ensure all grants are properly charged indirect costs.

5.   Require AHDC to adjust its performance reports for the improperly reported
     placements.




                                         2
                         INTRODUCTION AND BACKGROUND


The Division of Migrant and Seasonal Farmworkers (formerly the Division of Seasonal
Farmworker Programs) within ETA is responsible for administering the National Farmworker
Jobs Program (NFJP). The intent of NFJP, under section 167 of the Workforce Investment Act,
is to strengthen the ability of eligible migrant and seasonal farmworkers and their families to
achieve economic self-sufficiency through job training and other related services that address
their employment related needs. Assistance from the NFJP is accessed through the NFJP grantee
partners and local One-Stop Centers.

The Arkansas Human Development Corporation (AHDC) is a private, nonprofit organization
whose primary purpose is to administer the farmworker program in Arkansas and to provide
skills training programs to eligible individuals.

AHDC was awarded a grant in the amount of $1,158,895 to provide training and services to
eligible migrant and seasonal farmworkers. AHDC operates an administrative office and
education center in Little Rock, Arkansas, and satellite offices in Gosnell, Forrest City, Dumas,
Hope, and Fort Smith. These offices are located in areas that maximize availability to the
migrant and seasonal farmworkers. AHDC also administers several other grant programs, the
largest being an emergency assistance program for low-income migrant and seasonal
farmworkers through the U.S. Department of Agriculture.

AHDC provides the following types of training to participants:

   1. Classroom training- This training includes general employment skills classes and
      vocational and technical job training. General employment skills and vocational and
      technical job training are taught by vocational schools and community colleges.

   2. On-the-job training- This training activity involves a contractual placement of a
      participant in an actual work environment. This allows an employer to hire an employee
      and be reimbursed up to 50 percent of the wages paid during a specified training period.

   3. Work experience- This training helps provide non-farmwork employment experience in
      order to make a participant more attractive to prospective employers. In this situation,
      the participant is paid by AHDC and placed in the public or private nonprofit sector to
      obtain general employment skills.

AHDC also offers other related assistance services, including emergency services to meet shelter
and transportation needs, pesticide safety training while still in farmwork, and referrals to other
assistance providers.




                                                 3
                 OBJECTIVES, SCOPE, AND METHODOLOGY

The primary objectives of our audit were to determine whether the costs claimed by AHDC for
the period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable,
and allocable under the cost principles set forth in OMB Circular A-122 and grant guidelines and
to determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures, as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National Farmworker Jobs Program
under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements and Audits
of Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed in
the Findings section of this report.

Compliance with Laws and Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on the
compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of non-compliance are discussed in the Findings section of this report.




                                               4
Our sample universe of participants included both participants terminating during the period as
well as those still enrolled at the end of the program year. In Program Year 2000, AHDC served
815 participants. Farmworkers who received emergency related assistance services, most
commonly in the form of food assistance, comprised the largest group served totaling 712
participants (87 percent). Farmworkers who were placed in unsubsidized employment
comprised the second largest group with a total of 87 participants (11 percent). We reviewed a
base sample of 42 participant files. Our sampling technique was a random selection so that all
participants had an equal chance of being selected. Our initial testing revealed weak verification
procedures on some participants enrolled in training activities, and we selected an additional 33
participants involved in training programs during the year. Procedures performed on the selected
participants included reviewing the eligibility determination, reviewing the types of services
provided and the costs of those services, and reviewing the program outcome for those exiting
the program.

The costs reported and performance reported by AHDC are presented on the Schedules of Costs
Reported and Performance Reported in this report. These schedules, included as schedules A
and B, respectively in this report, are based on the information reported to ETA in the Financial
Status Report and the Program Status Summary.




                                                5
                                                FINDINGS



    1. Ineligible Participants Were Enrolled In the National Farmworker Jobs Program


During Program Year 2000, AHDC provided training and services to over 800 participants, of
whom 98 had received some type of training (CRT, WE, OJT). In testing the participants’
eligibility, we initially selected a sample of 42 participants, which was comprised of 38 who
received services only and 4 who received training. In our initial testing, we had concerns that
verification forms were not being used as intended. It appeared that the forms were being filled
out either by the AHDC staff, or the participant, not the employer. This concern led to additional
procedures in which we contacted employers to independently verify the forms in the file. Of
the four training participants, we found two that were ineligible, representing 50 percent of the
training participants in our sample. Therefore, we expanded our sample by selecting an
additional 33 training participants. Of the 37 participant files tested for eligibility, we found that
8 were ineligible, and we question $24,888 for the 8 ineligible participants.

To be eligible under NFJP a person must be a disadvantaged migrant or seasonal farmworker, or
their dependent, who has been primarily employed in agricultural labor that is characterized by
chronic unemployment or underemployment during the 12-month eligibility period (12 months
within the 24 months immediately preceding the application for services), and:

•        Is a citizen, or someone authorized by the Attorney General to work in the U.S., and

•        Is registered for military selective service, if a male applicant.

A migrant farmworker is a seasonal farmworker whose agricultural labor requires travel to the
job site, without being able to return home to his/her permanent residence the same day.

Eight of 37 Training Participants (22 Percent) Sampled Were Ineligible

In our sample of 37 classroom-training participants, we found that 8 were ineligible for the
program because they either (1) had not performed the farmwork as they had claimed, which we
verified with the employer, or (2) the farmwork they used to qualify for the program occurred
prior to the 24-month eligibility period requirement contained in NFJP Bulletin 00-02.
Responses received in our telephone verification process ranged from: (1) a farmer claiming the
participant (his nephew) had never worked for him, to (2) a farmer stating that his farm had not
been in operation since the 1990’s, well outside the time claimed for one participant, to (3) a
farmer recalling hiring the participant for “a couple of days” doing non-farmwork related tasks.
Total questioned costs for these eight participants are $24,888.




                                                    7
To demonstrate the magnitude of the internal control weaknesses, we projected the error rate to
the universe of those that were enrolled in AHDC classroom training activities. We found that
the projected costs of ineligible participants equaled $55,157∗.

AHDC’s Response to the Draft Report and Auditor’s Conclusion

Auditor’s Note: AHDC included personal identifying information in its response which has been
omitted from this report and a number put in place of the name used in the response.

AHDC stated the following:

           The Auditor recommended that $9,647 expended on (1) be questioned
           because his father was not a farm worker, but a farm owner. (1) was
           enrolled as a family of one and not as a dependent of his family. In fact
           (1)’s mother and father signed a notarized affidavit attesting to the fact
           that (1) worked for them on the farm and that he did not own any part of
           the farm. Under the rules of the NFJP this applicant would not be
           ineligible under these circumstances unless he was a dependent of his
           family.

           (2)- The auditor questioned $3,648.75 on this applicant. This applicant
           appeared to meet all conditions for enrollment in the NFJP. According to
           his application and supporting documentation, he was a farmworker and
           met income guidelines. As a result of the audit it was revealed that the
           applicant had falsified his application and enlisted the help of others to
           verify these false statements. We contacted the applicant and his family
           seeking repayment of funds expended on his behalf. It was determined the
           agency spent $3648.75 on this applicant. The applicant refunded the entire
           amount, which we now have in our account pending the resolution of this
           audit.

Based on AHDC’s response, we have concluded that (1) was eligible and have withdrawn
questioned costs of $9,647. We did not question any costs related to participant (2). However,
we concur with the actions taken by AHDC.

AHDC provided additional documentation to verify the farmwork of seven of the eight
participants we questioned. The additional documentation consists of letters from acquaintances,
friends or instructors stating they had knowledge of the participants in question doing farmwork.
Most of these letters contain no specifics of where the work was done or timeframes performed
and none are considered adequate to refute the evidence gathered during the audit. There were
also letters submitted from several people in the community including judges, church pastors,
and businessmen stating that it was common practice for the farm labor to be paid in cash and
farmers may be hesitant to confirm employment information. These letters are not deemed
relevant to the audit, as the regulations over the program are unchanged by local work customs

∗
    The $55,157 is the point estimate of disallowed costs using a confidence limit of 90 percent.


                                                            8
or environments. Due to privacy concerns the documentation described above is not presented in
Appendix A.

Our sample testing revealed that AHDC has weak management controls over its eligibility
verification process. These weak controls are allowing the enrollment of participants that do not
have the required farmwork background as set forth in the regulations of the program. Payments
made to these participants would be unallowable and, therefore, we question the amounts paid to
these ineligible participants.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

     •   recover questioned costs of $24,888; and

     •   require AHDC to properly verify all required eligibility criteria, including farmwork
         history and income, and all other items addressed in the NFJP Bulletin 00-02.




                                                9
 2. Costs Related To the DOL Youth Grant Were Charged To the DOL
    Adult Migrant Grant
During Program Year 2000 AHDC charged the costs of the DOL Youth Grant to the DOL Adult
Grant. These costs included registration fees for a youth assembly, and equipment purchased for
the youth. Total questioned costs are $5,065.

DOL provided AHDC with two separate and distinct grants, one for adults and one for youth.
Separate general ledgers were maintained for each grant. However, we found that costs for the
youth grant were charged to the adult grant.

During our testing of cash disbursements, we found a disbursement for registration fees for the
Martin Luther King, Jr. “I have a dream” National Youth Assembly. This was a youth related
disbursement, but it was charged to the adult program. The fees totaled $5,000. Also, in testing
property and equipment transactions we found a disbursement for a fax machine that was
purchased by AHDC to be used by youth personnel. The cost of the fax machine was $65 and it
was charged to the adult program.

OMB Circular A-122(B)(1) states:

       . . . direct costs are those that can be identified with a particular final cost
       objective, i.e., a particular award, project, service, or other direct activity of an
       organization . . . and are to be assigned directly thereto.

The registration fees for the National Youth Assembly and the purchase of the fax machine were
costs of the DOL Youth Grant and should have been charged to that funding source.

AHDC’s Response to the Draft Report and Auditor’s Conclusion

AHDC stated:

       Management concurs with the auditor’s findings and accepts their
       recommendation. The appropriate steps were taken and the NFJP was reimbursed
       for these expenses by the NFYP prior to the NFYP being closed-out June 30,
       2002. Management, however, would like to express its belief that these charges
       were the result of problems encountered during the implementation of a new
       accounting package and not the result of any willful disregard of Department of
       Labor regulations.

While AHDC concurs with the finding and states that it has taken corrective action, ETA needs
to confirm that corrective action has occurred.

Recommendation:

We recommend that the Assistant Secretary for ETA recover the $5,065 in questioned costs.



                                                  10
 3. Costs Related To the CADF Grant Were Charged To the DOL Adult
    Migrant Grant

AHDC charged costs incurred for the Central Arkansas Development Fund (CADF) Grant to the
DOL Adult Grant. Included in these costs were charges for assembling pamphlets and a position
announcement. The total questioned costs are $1,440.

CADF is a fund that provides loans to low income individuals to assist in starting small
businesses. This fund consists of Federal, state, and private money pooled to provide these
loans. AHDC maintains a general ledger for this program to account for its activities. However,
we found that costs for this grant were charged to the DOL adult grant as follows.

In testing cash disbursements for the DOL adult migrant program, we found two CADF related
disbursements. The first, totaling $963 was for the assembly of pamphlets, and included charges
for color copies and folding. These pamphlets provided information about CADF and the
services provided by AHDC in relation to CADF.

The second, totaling $477, was for a position announcement in a local newspaper. The
announcement was for an Americorps/Volunteers in Service to America (VISTA) worker, to
work on a project assisting the CADF Revolving Loan Program.

OMB Circular A-122(B)(1) states “direct costs are those that can be identified with a particular
final cost objective, i.e., a particular award, project, service, or other direct activity of an
organization . . . and are to be assigned directly thereto.” The above costs can be identified with
the CADF Grant, and should be charged to this funding source.

AHDC’s Response to the Draft Report and Auditor’s Conclusion

AHDC concurred with this finding and recommendation and stated that the CADF will
reimburse the NFJP in the amount of $1,440. ETA needs to follow up to ensure that the stated
corrective action is taken.

Recommendation:

We recommend that the Assistant Secretary for ETA recover the $1,440 in questioned costs.




                                                 11
 4. Certain Costs Were Not Allocated To Other Grants That Benefited


AHDC charged 100 percent of costs that should have been shared with other grants to the DOL
Adult Migrant Grant. We question $3,052.

In testing cash disbursements, we found 11 disbursements that were directly charged to the DOL
Adult Migrant Grant, but were not directly related to any particular cost objective. The charges
included:

       •   An announcement for an administrative assistant with responsibilities for performing
           secretarial, purchasing, and other administrative functions,
       •   Postage meter fees,
       •   A FedEx billing to AHDC’s CPA Firm,
       •   Complete cell phone invoices for AHDC’s Executive Director,
       •   Multi-purpose checks with envelopes for the operating account,
       •   General office supplies,
       •   Computer and labor support performed at AHDC’s central office,
       •   Membership fee to Little Rock Chamber of Commerce, and
       •   A lease payment for the main copy machine used by all AHDC employees.

Also, in testing property and equipment we found the following disbursements that were charged
100 percent to the DOL Adult Migrant Grant, but were not directly related to any particular cost
objective: (1) a laptop computer used by the Executive Director, (2) a desktop computer used by
AHDC staff, (3) a charge for a dolly used by all employees at AHDC’s central office, and (4)
disbursements for conference room furniture such as tables, chairs, shelves, and serving carts.

OMB Circular A-122 (C)(1) states “indirect costs are those that have been incurred for common
or joint objectives and cannot be readily identified with a particular final cost objective.”

The administrative costs discussed above cannot be identified with a particular cost objective.
They should either be considered indirect costs, or allocated direct costs. In either case they
must be allocated in accordance with a plan approved by the cognizant agency. The equipment
purchases in question are not allowable as indirect costs, however the costs should have been
allocated and shared by all the grants that would benefit.

To determine an amount to question, we developed a ratio of each grant’s direct cost base in
relation to the overall direct costs. This percentage was then multiplied by the total amount of
misallocated costs ($21,877) found during our review to determine the amount overcharged the
DOL Adult Grant. The total amount of questioned costs based on this calculation is $3,052.




                                                12
AHDC’s Response to the Draft Report and Auditor’s Conclusion

AHDC stated:

       Management disputes these charges. The laptop computer, office furnishings,
       dolly, cell phone, and chamber of commerce membership fee are all used to help
       the agency meet its responsibilities under the NFJP. On very few occasions is the
       equipment used for non-NFJP activities as approximately 90% of our business is
       related to NFJP.

We make no change in our recommendation. All of the items in question are items related to the
Executive Director and the Headquarters and by nature benefit all programs operated. Our
finding takes into account that approximately 90 percent of AHDC’s business is related to NFJP.
That is why we only question $3,052 in costs of a total of $21,877 which recognizes that 86
percent of the cost would have been paid by NFJP had the costs been properly allocated.

Recommendation:

We recommend that the Assistant Secretary for ETA recover questioned costs of $3,052.




                                              13
 5. Indirect Cost Rate Agreement Was Incorrectly Applied


Indirect cost rates are established to allow for the equitable distribution of costs that are
attributable to more than one cost objective. AHDC has an indirect cost agreement that allows
indirect costs to be charged at a negotiated rate multiplied by AHDC’s indirect cost base. The
base chosen for AHDC is direct salaries and wages including fringe benefits.

We noticed that not all grants were being charged direct salaries in conjunction with carrying out
grant activities. Without properly allocating the direct salaries to all grants, the indirect costs
cannot be properly spread to the grants in accordance with the benefits received. Direct costs,
including salaries, were not charged to the USDA Farmworker Weather Relief Grant, only a
fixed administrative fee. Salaries were not charged to the CADF, because a volunteer is used for
administrative functions. The guidance for indirect costs requires the application of indirect
rates; even if the grant does not allow for indirect costs or has limits lower than the allocated
amount. These costs, if not allowed under the grants in question, must be covered by non-
Federal funds, and cannot be arbitrarily charged to other grants.

OMB Circular A-122, Attachment A. D. 3.c. Allocation bases states:

     The essential consideration in selecting a method or a base is that it is the one
     best suited for assigning the pool of costs to cost objectives in accordance with
     benefits derived.

Under the current procedures used by AHDC, direct salaries do not represent the most equitable
base to allocate indirect costs. However, AHDC does have the systems in place to manage the
allocation of direct salaries to all grants, if procedures were modified to take advantage of the
existing systems. If all direct salaries were charged properly to all grants, then direct salaries
could be used as an equitable base for indirect costs. However, we believe that cost negotiators
should review the use of volunteer labor as it relates to the application of indirect cost rates.
Programs using volunteer staff are consuming resources that are funded by the indirect cost pool,
but with no direct salary expense, they will not bear any indirect costs if direct salaries are used
as the base for allocation.

In addition, AHDC’s single auditors noted that the allocation of indirect costs is not made prior
to reimbursement requests; therefore, estimates are used in determining amounts requested from
DOL. This untimely allocation of indirect costs can cause reimbursements in excess of actual
costs to occur, and lead to large amounts of cash on hand.

AHDC’s Response to the Draft Report and Auditor’s Conclusion

       We concur with the auditor’s recommendation that any grant received pay its fair
       share of cost under the approved indirect cost rate agreement. We also continue
       to believe that the flat administrative fee was adequate based on the short duration
       of the program and self-certification system mandated by the United States



                                                 14
       Department of Agriculture and because it helped us meet our mandate to leverage
       other non-USDOL funds.

       . . . Staff from the Regional Indirect Cost Negotiator’s office visited AHDC
       during the week of February 18, 2002. A review of the agency’s internal indirect
       cost allocation system for the Program Year following the OIG audit revealed that
       we were in compliance with applicable regulations. AHDC staff received
       technical assistance from the Indirect Cost Negotiator and guidance on how to
       respond to related audit questions.

The use of volunteer labor is not readily apparent in financial information and may impact the
base used in allocating indirect costs. We do not know if this issue was covered in the review
discussed.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

   •   request OASAM’s Regional Cost Negotiator to review the base being used for indirect
       costs in relation to the programs AHDC is operating to consider the impact of volunteer
       labor on the application of indirect cost rates; and

   •   require AHDC to strengthen its controls over the application of its indirect cost
       agreement to ensure all grants are properly charged indirect costs.




                                                15
 6. Job Placement Totals Reported To ETA Were Overstated


Job placement totals reported to ETA as summarized in Schedule B were overstated, because a
number of the participants were ineligible or had not worked for the employer of record.
Therefore, the data reported to ETA should be adjusted for these participants.

In addition to testing the 37 classroom-training participants for eligibility (see Finding 1), we
also reviewed their job placement outcomes to determine the accuracy of the job placement totals
reported. We recognized that not all classroom-training participants would have a placement
outcome as they may still be enrolled, have dropped out before completion, or had other
outcomes not resulting in a job placement. In our sample, 35 of the 37 participants were reported
as job placements. We found that 11 participants had been incorrectly reported as entering
unsubsidized employment.

Eight of the 11 questioned placements were ineligible for the program, as discussed in our
Finding No. 1. For another three placements, the alleged employers had no records of employing
the participants.

AHDC’s Response to the Draft Report and Auditor’s Conclusion

Auditor’s Note: AHDC included personal identifying information in their response which has
been omitted from this report and a number put in place of the name used in the response.

Our draft report stated that 15 participants had been incorrectly reported as placements. After
reviewing additional information provided by AHDC in its response to the draft report, we have
reduced the number of incorrectly reported placements by four (from 15 to 11).

AHDC contested our initial finding that (1) was ineligible, stating that when the participant came
into the office that he was accompanied by a female friend with whom he was living, and a child
that was theirs, and provided an address different than that of the parents. Based on AHDC’s
response, we concluded that (1) was eligible and the reported placement was correct.
AHDC stated that participants (5), (6), and (11) returned to farmwork after completing or
quitting training and were properly reported as “entered unsubsidized employment,” as allowed
by program regulations. While we agree that the grantee reported the outcomes correctly (or as
allowed by the program), we do not believe ETA should consider returning to farmwork, after
the grantee expended funds to train the participant in another occupation, a “positive outcome.”

Eight participants were deemed ineligible for the program, as detailed in Finding 1, so any
placement they had was a moot point. For the remaining three participants, we contacted the
employers with which the participants were allegedly placed and the employers denied having
hired the participants. AHCD provided no additional information regarding these reported
placements in its response to the draft report.




                                                16
Our sample testing showed 11 incorrect outcomes reported out of a total of 37 (30 percent).
Based on this rate, we would expect 26 of the total 87 placements reported to be in error. This
incorrect reporting skews the overall results for outcomes in relation to costs. This is very
important in the case of AHDC, where a small segment of participants represents a large portion
of the costs.

Recommendation:

We recommend that the Assistant Secretary for ETA require AHDC to adjust its performance
reports for the incorrectly recorded placements.




                                               17
                                              Schedule A


ARKANSAS HUMAN DEVELOPMENT CORPORATION
            LITTLE ROCK, AR


       SCHEDULE OF COSTS REPORTED
        Program Year Ended June 30, 2001


   Financial Status Report       Reported

   1. Classroom Training          $ 319,502

   2. On the Job Training             6,913

   3. Work Experience                11,835

   4. Training Assistance           518,124

   5. Services Only                  61,687

   6. Administration                227,038

   7. Total                      $1,145,099




                            18
                                                                                      Schedule A

                                  TERMINOLOGY USED


Classroom Training Costs related to participants provided some form of organized classroom
                   training. Generally includes tuition costs, stipends, and support provided
                   while in training.

On the Job Training Costs paid to reimburse an employer for half of the wages paid to a
                    participant during a contractual training period. Also includes support
                    paid to the participant.

Work Experience      Wages paid to a participant placed in a job by the grantee in order to assist
                     the participant by gaining practical work experience.

Training Assistance This is a category carried over from JTPA generally not used under WIA
                    reporting.

Services Only        Costs related to participants that are only provided support service, with no
                     enrollment in training programs.

Administration        Salaries and overhead costs related to general administration of the
                      program and not directly providing program services. Costs are limited
                      under the grant agreement.




                                               19
                                                                                        Schedule A-1


                ARKANSAS HUMAN DEVELOPMENT CORPORATION
                            LITTLE ROCK, AR

                           SCHEDULE OF COSTS REPORTED
                                Supplemental Information
                            Program Year Ended June 30, 2001

                                                    Incurred
               Category                               Costs    Subtotals
               1. Classroom Training
                  A. Tuition                         $ 127,136
                  B. Allowances                        141,113
                  C. Supportive Services                51,253  $ 319,502
               2. On the Job Training
                  A. OJT Contract Payments             $ 6,913     $ 6,913
               3. Work Experience
                  A. Stipends                         $ 11,835   $ 11,835
               4. Training Assistance
                  A. Salaries and Fringe Benefits    $ 341,496
                  B. Travel Costs                       54,263
                  C. Office Costs & Overhead           122,365  $ 518,124
               5. Services Only
                  A. Supportive Services              $ 61,687   $ 61,687
               6. Administration
                  A. Indirect Administration          $ 91,025
                  B. Salaries and Fringe Benefits       86,277
                  B. Admin Related Overhead             49,736  $ 227,038
               7. Total                           $ 1,145,099 $ 1,145,099



Note: The above information is not required to be reported to ETA, and was created by
reviewing the financial records used in preparation of the Financial Status Report.




                                              20
                                                                               Schedule B


               ARKANSAS HUMAN DEVELOPMENT CORPORATION
                           LITTLE ROCK, AR


                    SCHEDULE OF PERFORMANCE REPORTED
                        Program Year Ended June 30, 2001

           Category                                       Planned   Reported

           Total Participants                                 541        815

             Total Terminations                               541        803

               Entered Unsubsidized Employment                 85         87

                  Direct Placement                              5          5

                  Indirect Placement                           80         82

               Also Obtained Employability Enhancement          -          -

               Employment Enhancement Only                      -          -

               Services Only                                  450        712

               All Other Terminations                           6          4

             Total Current Participants (End of Period)         0         12

Note: The Program Status Summary Forms used were brought forward from the previous JTPA
program. Many of the categories above were not required to be reported under the new
guidelines.




                                             21
                                                                                       Schedule B

                              TERMINOLOGY USED


Participants                       Disadvantaged migrant and seasonal farmworkers
                                   and their dependents

Total Participants                 Participants that were provided any services during
                                   the program year. Includes participants carried
                                   over, new participants, and those exiting during the
                                   program year.

Total Terminations                 Participants that exited the program during the year.

Entered Unsubsidized Employment    Participants placed in a non-federally subsidized
                                   job.

Direct Placement                   Participants referred directly to a job with no
                                   training services provided. (Detail not required to
                                   be reported under WIA)

Indirect Placement                 Participants placed in a job after training or
                                   enhancement services. (Detail not required to be
                                   reported under WIA)

Also Obtained Employability
Enhancement                        Participants placed that also received services
                                   improving job prospects, such as completing GED
                                   program, obtaining a degree, completing
                                   occupational training. (Detail not required to be
                                   reported under WIA)

Employment Enhancement Only        Participants not placed in a job but exiting the
                                   program with enhancements to improve job
                                   prospects. See examples above. (Detail not
                                   required to be reported under WIA)

Services Only                      Participants that exited the program with support
                                   services only, with no training or referral to
                                   employment.

All Other Terminations             Participants that exited the program that do not fall
                                   into any other termination category.




                                     22
                          Appendix A
Response to Draft Report by Arkansas Human Development Corporation




                                23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
